No. 20-28
IN THE

$>upreme Qtourt of tbe Wniteh $)tates
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
AND THE ADMINISTRATIVE COMMITTEE To THE
RETIREMENT BENEFIT ACCUMULATION PLAN FOR
EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,

Petitioners,
V.

TIMOTHY D. LAURENT AND SMEETA SHARON,
ON BEHALF OF THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED,

Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Reply Brief for Petitioners contains 3,000 words and complies with the word
limitation established by Rule 33.l(g)(iii) of the Rules of this Court.
Dated: September 29, 2020

